2012, expenditures and jobs creation were verified without exception. However, the auditors
found that $298,412 in unallowable costs (of the $1,604,129 in total questioned costs) were
charged to ARRA awards.

The auditors recommended that NSF address the findings by requiring Virginia Tech to work
with NSF in resolving the questioned costs of $1,604,129 and strengthen Virginia Tech’s
administrative and management controls.

Virginia Tech, in its response dated May 27, 2014, agreed with the majority of the findings and
questioned costs. However, Virginia Tech responded that the institution does not believe NSF
policies are clear concerning the charging of senior salary, but they are developing a new
proposal management system, which will be designed to capture the data necessary to assure
compliance with the NSF Senior Project Personnel rule, once it is clarified by NSF. Virginia
Tech also added two positions to its Office of Sponsored Programs’ Compliance Team. Virginia
Tech’s response is described after the findings and recommendations and is included in its
entirety in Appendix A.

Appendix C contains a detailed summary of the unallowable items that were questioned.
Additional information concerning the questioned items was provided separately by OIG to the
Division of Institution and Award Support, Cost Analysis and Audit Resolution Branch. Please
coordinate with our office during the six month resolution period, as specified by OMB Circular
A-50, to develop a mutually agreeable resolution of the audit findings. Also, the findings should
not be closed until NSF determines that all recommendations have been adequately addressed
and the proposed corrective actions have been satisfactorily implemented.

OIG Oversight of Audit

To fulfill our responsibilities under generally accepted government auditing standards, the Office of
Inspector General:

   •   Reviewed WSB’s approach and planning of the audit;
   •   Evaluated the qualifications and independence of the auditors;
   •   Monitored the progress of the audit at key points;
   •   Coordinated periodic meetings with WSB and NSF officials, as necessary, to discuss audit
       progress, findings, and recommendations;
   •   Reviewed the audit report, prepared by WSB to ensure compliance with generally accepted
       government auditing standards; and
   •   Coordinated issuance of the audit report.

WSB is responsible for the attached auditor’s report on Virginia Tech and the conclusions
expressed in the report. We do not express any opinion on the conclusions presented in WSB’s
audit report.




                                                 2
We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Elizabeth Goebels at                 or
Billy McCain at

Attachment

cc:    Alex Wynnyk, Branch Chief, CAAR
       Michael Van Woert, Executive Officer, NSB
       Ann Bushmiller, Senior Legal Counsel, NSB




                                                3
 Virginia Polytechnic
          P           Institute
                      I         a nd State University




              Audit of Incurred Coosts for
        Nattional Sciencce Foundat ion Awards
For the Periiod January y 1, 2010 to December 31, 2012
TABLE OF CONTENTS



                                                                                                                                                         Page
Independent Auditors’ Report....................................................................................................................... 1
Results in Brief ............................................................................................................................................. 2
Findings and Recommendations ................................................................................................................... 2
Appendix A: Awardee Response ................................................................................................................ 11
Appendix B: Objectives, Scope, and Methodology .................................................................................... 15
Appendix C: Questioned Cost Summary by Award ................................................................................... 17




ACRONYMS

AAG                            Award & Administrative Guide
ARRA                           American Reinvestment and Recovery Act of 2009
CFR                            Code of Federal Regulation
CHEMS                          Center for Energy Harvesting Materials and Systems
DIAS                           Division of Institution and Award Support
F&A                            Facilities and Administrative
FDP                            Federal Demonstration Partnership
FFR                            Federal Financial Report
GPG                            Grant Policy Guide
IDC                            Indirect Cost
IGERT                          Integrative Graduate Education and Research Traineeship
IPA                            Intergovernmental Personnel Act
MTDC                           Modified Total Direct Costs
NSF                            National Science Foundation
OIG                            Office of Inspector General
OMB                            Office of Management and Budget
OSP                            Office of Sponsored Projects
PI                             Principal Investigator
REU                            Research Experience for Undergraduates
Virginia Tech                  Virginia Polytechnic Institute and State University
 WithumSmith+Brown
 A Professional Corporation
 Certified Public Accountants and Consultants




 8403 Colesville Road, Suite 340
 Silver Spring, Maryland 20910 USA
 301.585.7990 . fax 301.585.7975
 www.withum.com
 Additional Offices in New Jersey
 New York and Pennsylvania




                                                                         Independent Auditors’ Report

             The National Science Foundation (NSF) is an independent Federal agency created by the National
             Science Foundation Act of 1950 (P.L. 810-507). Its mission is “to promote the progress of science; to
             advance the national health, prosperity, and welfare; and to secure the national defense.” The Foundation
             is also committed to ensuring an adequate supply of the Nation’s scientists, engineers, and science
             educators. NSF funds research and education in science and engineering by awarding grants and contracts
             to educational and research institutions in all parts of the United States. Through grants, cooperative
             agreements, and contracts, NSF enters into relationships with non-Federal organizations to fund research
             education initiatives and assist in supporting internal program operations. Virginia Polytechnic Institute
             and State University (Virginia Tech) is an NSF grant recipient.

             Virginia Tech is a public land-grant university serving the Commonwealth of Virginia, the nation, and the
             world community. The discovery and dissemination of new knowledge are central to its mission. Through
             its focus on teaching and learning, research and discovery, and outreach and engagement, the university
             creates, conveys, and applies knowledge to expand personal growth and opportunity, advance social and
             community development, foster economic competitiveness, and improve the quality of life.

             The University generated $454 million for research programs in fiscal year 2012, ranking 40th in the
             nation, according to the National Science Foundation. Each year, the university receives thousands of
             awards to conduct research from an ever-expanding base of sponsors. Because Virginia Tech is one of the
             largest recipients of NSF award dollars, NSF-OIG selected the University for audit.

             WithumSmith+Brown, under contract with the NSF-OIG, audited the costs claimed by Virginia Tech to
             NSF for the period beginning January 1, 2010 and ending December 31, 2012. Our audit objectives were
             to: (1) identify and report on instances of unallowable, unallocable, and unreasonable costs; (2) identify
             and report on instances of noncompliance with regulations, Federal financial assistance requirements, and
             the provisions of the NSF award agreements related to the transactions selected; and to (3) determine the
             reasonableness, accuracy and timeliness of the awardee’s American Reinvestment and Recovery Act of
             2009 (ARRA) quarterly reporting, including reporting the jobs created under ARRA and grant
             expenditures for the two most recent quarters.




A member of HLB International. A world-wide organization of accounting firms and business advisers.




                                                                                                                     1
We conducted this performance audit in accordance with generally accepted government auditing
standards which require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. Our objectives, scope, methodology, and criteria are more fully detailed in Appendix B.

Results in Brief

To aid in determining reasonableness, allowability, and allocability of costs, we obtained from NSF all
awards for which costs were reported to NSF during the period of January 1, 2010, through December 31,
2012. This provided an audit universe of approximately $113 million, in more than 190,000 transactions,
across 685 individual NSF awards.

Of the $113 million in the universe, our audit questioned $1,604,129 of costs claimed on 109 NSF awards
because Virginia Tech did not comply with Federal and NSF award requirements. Specifically, we noted:
$1,456,716 in senior personnel salary that exceeded NSF’s two-month limit; $15,585 in indirect cost
overcharges; $8,485 in unallowable moving expenses; $2,913 in unallocable immigration fees; $2,101 in
unreasonable travel expenses; and $118,329 in unreasonable equipment and materials charges. These
questioned costs resulted in five areas identified where Virginia Tech’s controls could be improved to
ensure compliance with laws and regulations.

The universe of NSF ARRA-funded awards included approximately $17 million, in more than 25,000
transactions, across 47 NSF awards. Our review found that Virginia Tech properly accounted for and
segregated NSF ARRA-funded awards in the accounting system. Additionally, the ARRA reports were
reasonable, accurate, and timely. For the quarters ending September 30, 2012 and December 31, 2012,
expenditures and jobs creation were verified without exception. The allowability of costs reported for
these awards were tested in conjunction with the other NSF awards. We did note $298,412 questioned in
15 ARRA awards with expenditures related to senior personnel that exceeded the two-month NSF salary
limit.

Virginia Tech reviewed and agreed with the facts via email and their written response for $1,520,854 in
questioned costs: 1) $1,456,716 for exceeding NSF limits on senior salary; 2) $15,585 for the improper
allocation of indirect costs; 3) $8,485 for moving and relocation expenses; 4) $2,913 for unallowable
immigration fees; 5) $2,101 for unreasonable travel expenses; and 6) $35,054 for unreasonable property
purchases. Of the amounts in question, the University stated that adjustments have already been made to
correct $27,457. The University did not agree with $83,275 of equipment and materials purchases that
were not allocable, reasonable, or prudent. The findings are outlined in our report and presented by award
in Appendix C.

Findings and Recommendations

Finding 1 – Exceeded NSF Limits on Senior Salary

Our review of the accounting and reporting of NSF senior salary costs revealed that Virginia Tech does
not adequately track/monitor senior personnel costs. For example, our review identified senior personnel
whose salary appeared to exceed the NSF two-month salary limit.

Per NSF grant terms and conditions, grantees are fully responsible for the adherence to NSF policies. One
such condition relates to senior personnel. Per NSF Award & Administrative Guide (AAG), Chapter V,
Allowability of Cost, Section 1, Salaries, Wages, and Fringe Benefits, “NSF normally limits salary
compensation for senior project personnel on awards made by the Foundation, to no more than two
months of their regular salary in any one year. This limit includes salary received from all NSF funded
                                                                                                        2
Recommendation 2:

We recommend that the NSF’s Director of the DIAS address and resolve the following Virginia Tech
recommendations:

        a. Work with NSF to resolve the $15,585 of questioned costs; and
        b. Strengthen the administrative and management controls and processes for recalculating
           indirect costs charged to NSF awards to ensure that only allowable cost categories are
           included in the IDC calculation.

Awardee Comments:

Virginia Tech concurs with this finding and recommendation and will continue to provide regular training
for departmental fiscal staff and central administrators in these areas. Virginia Tech's systems of control
are designed to be effective and efficient, providing reasonable but not absolute assurance of compliance.
We believe this to be isolated error that was overlooked by both the originator and the reviewer. Because
the award has closed, Virginia Tech will seek guidance from NSF on how to return the excess indirect
cost funds. (See Appendix A for the complete awardee response.)

Auditor Comments:

Virginia Tech’s comments are responsive to the issue noted in this finding. Once NSF determines that the
recommendation has been adequately addressed and the questioned costs have been resolved, this finding
should be closed.


Finding 3 – No Benefit for Moving and Relocation Expenses

We noted $8,485 in unallowable and unreasonable moving and relocation expenses related to four NSF
awards. These costs were due to employees who did not work on the award for at least 12 months after
hire as required by 2 CFR 220 and moving expenses for spouses of employees who did not meet the
requirements in NSF Grant General Conditions Section 10. As such, there was no benefit to the awards,
and the costs are questioned.

Per Section 42(a) 2 CFR §220 (OMB Circular A-21), “...relocation costs incurred incident to recruitment
of new employees, are allowable to the extent that such costs are incurred pursuant to a well-managed
recruitment program...where…the newly hired employee resigns for reasons within his control within 12
months after hire, the institution will be required to refund or credit such relocation costs to the Federal
Government.”

Additionally, the NSF Grant General Conditions Section 10, Travel, state that travel support for
dependents of key project personnel is allowable only if the individual is a key person who is essential to
the project on a full-time basis; the individual’s residence away from home and in a foreign country is for
a continuous period of six months or more and is essential to the effective performance of the project; and
the dependents’ travel allowance is consistent with the policies of the organization administering the
award.

Without a process in place to ensure the proper charging of moving expenditures, there is the increased
risk that funds may not be spent in accordance with Federal requirements. Virginia Tech personnel did
not adequately monitor the moving and relocation expenditures charged to NSF awards which resulted in
unallowable costs. Virginia Tech has performed corrective actions to remove the excess moving and
relocation costs from the awards in question.
                                                                                                          5
Recommendation 3:

We recommend that the NSF’s Director of the DIAS address and resolve the following Virginia Tech
recommendations:

        a. Work with NSF to resolve the $8,485 of questioned costs; and
        b. Strengthen the administrative and management controls and processes for reviewing the
           propriety of moving and relocation expenses charged to NSF awards.

Awardee Comments:

Virginia Tech concurs with this finding and recommendation and will continue to provide regular training
for departmental fiscal staff and central administrators in these areas. Virginia Tech's systems of control
are designed to be effective and efficient, providing reasonable but not absolute assurance of compliance.
We believe this to be isolated error that was overlooked by both the originator and the reviewer. The costs
have been removed and revenue returned by letter of credit. (See Appendix A for the complete awardee
response.)

Auditor Comments:

Virginia Tech’s comments are responsive to the issue noted in this finding. Once NSF determines that the
recommendation has been adequately addressed and the questioned costs have been returned, this finding
should be closed.



Finding 4 – Unallocable Immigration Fees

We noted $2,913 in unallowable visa immigration fees for two NSF awards. For one of these awards, one
employee only worked 60 percent on the award. There was no benefit to the award for 40 percent of the
costs for this employee. For another award, the employee subsequently declined the position offered.
Therefore, the costs are questioned.

Section C.4 of 2 CFR §220 (OMB Circular A-21) “…cost is allocable to a sponsored agreement if it is
incurred solely to advance the work under the sponsored agreement….”

Virginia Tech personnel did not adequately review the expenditures charged to NSF awards which
resulted in unallowable costs. Virginia Tech has performed corrective actions to remove the excess visa
fees from the awards in question. Without a process in place to ensure the proper monitoring of visa fees
charged, there is the increased risk that funds may not be spent in accordance with Federal requirements.

Recommendation 4:

We recommend that the NSF’s Director of the DIAS address and resolve the following Virginia Tech
recommendations:

        a. Work with NSF to resolve the $2,913 of questioned costs; and
        b. Strengthen the administrative and management controls and processes for reviewing and
           approving visa fees charged to NSF awards.




                                                                                                         6
Awardee Comments:

Virginia Tech concurs with this finding and recommendation and will continue to provide regular training
for departmental fiscal staff and central administrators in these areas. Virginia Tech's systems of control
are designed to be effective and efficient, providing reasonable but not absolute assurance of compliance.
We believe this to be isolated error that was overlooked by both the originator and the reviewer. The costs
have been removed and revenue returned by letter of credit. (See Appendix A for the complete awardee
response.)

Auditor Comments:

Virginia Tech’s comments are responsive to the issue noted in this finding. Once NSF determines that the
recommendation has been adequately addressed and the questioned costs have been returned, this finding
should be closed.



Finding 5 – Unreasonable Travel Expenses

We questioned $2,101 in unreasonable travel expenses related to three NSF awards including illegible
meal receipts ($48), alcohol charges ($70), nine days of a fourteen-day Australia trip ($1,627), no
show/cancellation fees ($299), and for a workshop hotel room rate exceeding others ($57).

Section C.4 of 2 CFR §220 (OMB Circular A-21) “…cost is allocable to a sponsored agreement if it is
incurred solely to advance the work under the sponsored agreement; it benefits both the sponsored
agreement and other work of the institution, in proportions that can be approximated through use of
reasonable methods…The recipient institution is responsible for ensuring that costs charged to a
sponsored agreement are allowable, allocable, and reasonable under these cost principles.” Section A
states that “the accounting practices of individual colleges and universities must support the accumulation
of costs as required by the principles, and must provide for adequate documentation to support costs
charged to sponsored agreements.” Additionally, per section J.3, the costs of alcoholic beverages are
unallowable.

We found that meals and lodging expenditures for nine days of the fourteen-day trip to Australia were not
allocable because portions of the trip did not benefit the award. The student took a fourteen-day trip to
Australia with a family member and spent a total of 5 days on grant-related activities. Per Virginia Tech,
the PhD student was a participant in their Integrative Graduate Education and Research Traineeship
(IGERT) Fellows program. During the five days, the Fellow visited a group at a university that helped
with her research one afternoon and then attended the four-day conference. No explanation was given as
to how the additional nine days in Australia with a family member, when not spent attending the
workshop or conference, benefited the award.

Virginia Tech has performed corrective actions to remove $474 in travel costs from the awards in
question; leaving only the $1,627 for the Australia trip which remains unresolved.

Recommendation 5:

We recommend that the NSF’s Director of the DIAS address and resolve the following Virginia Tech
recommendations:

        a. Work with NSF to resolve the $474 of questioned costs;
        b. Work with NSF to resolve to NSF the $1,627 of questioned costs; and
                                                                                                         7
        c. Strengthen the administrative and management controls and processes for reviewing and
           approving travel expenses charged to NSF awards.

Awardee Comments:

Virginia Tech concurs with this finding and recommendation and will continue to provide regular training
for departmental fiscal staff and central administrators in these areas. Virginia Tech's systems of control
are designed to be effective and efficient, providing reasonable but not absolute assurance of compliance.
We believe this to be isolated error that was overlooked by both the originator and the reviewer. Virginia
Tech has removed and returned $474 of these costs and will seek guidance from NSF on how to return the
remaining funds. (See Appendix A for the complete awardee response.)

Auditor Comments:

Virginia Tech’s comments are responsive to the issue noted in this finding. Once NSF determines that the
recommendation has been adequately addressed and the questioned costs have been returned, this finding
should be closed.



Finding 6 – Unreasonable Equipment and Property Charges

We found that equipment expenses totaling $118,329 charged to nine NSF awards were not either
allocable, necessary or reasonable in accordance with 2 CFR 220 – Cost Principles for Educational
Institutions (formerly OMB Circular A-21).

According to 2 CFR 220, Section C, to be allowable for a federal grant, a cost must be allocable to the
federal award and be necessary and reasonable for the administration and performance of the award.
Furthermore, Appendix A, Sections C.2 and C.3, state that a cost must be reasonable to be allowable and
provide that a reasonable cost is one that a “prudent person” would have incurred under similar
circumstances.

With such a significant portion of the approved funding allocated to unbudgeted equipment purchases, we
question whether Virginia Tech could accomplish the research project as approved by NSF, thus
potentially changing the scope of the funded research. Several criteria, including 2 CFR, Part 215, Section
215.25(c)(1); the matrix of prior approval requirements for Federal Demonstration Partnership (FDP)
member institutions; and NSF’s Award and Administration Guide, Chapter II, Section B.1.a, require prior
approval for changes in the scope of a sponsored project. We found no evidence that Virginia Tech
assessed the impact the reduction to the approved budget categories had on the scope, requested, or
received NSF approval for the potential change in scope of the project.

We questioned equipment and property totaling $80,638 because the purchase of this equipment was not
included in the original grant application and not allocable, reasonable or prudent. Specifically, because
these purchases represent a significant reduction in the funds necessary to complete the proposed research
tasks, we question whether a prudent person would have spent more than 20 to 25 percent of the total
funding approved for the project on additional equipment.

       Per the grant proposal, equipment costing               was to be donated to Virginia Tech by an
        outside party. When the donation did not materialize, the equipment was purchased with grant
        funds. This equipment purchase represented 25 percent of the total funds awarded by NSF.
        Without obtaining NSF approval, Virginia Tech then reallocated the available budget by reducing
        the salaries on the project, potentially changing the scope of the project.
                                                                                                       8
APPENDICES
                                                                                           APPENDIX B
OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit included assessing the allowability, allocability and reasonableness of costs claimed by Virginia
Tech on the quarterly Federal Financial Reports (FFR) for the three-year period beginning January 1,
2010 through December 31, 2012. We also reviewed the accuracy, reasonableness, and timeliness of
Virginia Tech’s ARRA reporting.

The audit was performed in accordance with Government Auditing Standards for performance audits. The
audit objectives were to:

    1. Identify and report on instances of unallowable, unallocable, and unreasonable costs from the
       transactions tested;

    2. Identify and report on instances of noncompliance with regulations, Federal financial assistance
       requirements (e.g. Office of Management and Budget Circulars), and the provisions of the NSF
       award agreements as relates to the transactions tested; and

    3. Determine the reasonableness, accuracy, and timeliness of the awardee’s ARRA quarterly
       reporting, including reporting of jobs created under ARRA and grant expenditures for the two
       most recent quarters.

To accomplish our objectives, we assessed the reasonableness, accuracy, and timeliness of the awardee’s
ARRA quarterly reporting, including reporting of jobs created under ARRA and grant expenditures for
the two most recent quarters, by (1) recomputing the number of jobs created or retained in compliance
with OMB Memorandum M-10-08, Updated Guidance on the American Recovery and Reinvestment Act
– Data Quality, Non-Reporting Recipients, and Reporting of Job Estimates; (2) reconciled expenditures
per the general ledger to the ARRA expenditures; and (3) reviewed the ARRA reporting submission
dates.

To aid in determining reasonableness, allowability, and allocability of costs, we obtained from NSF all
awards for which costs were reported to NSF during the period of January 1, 2010, through December 31,
2012. This provided an audit universe of approximately $113 million, in more than 190,000 transactions,
across 685 individual NSF awards.

Our work required reliance on computer-processed data obtained from Virginia Tech and NSF. At our
request, Virginia Tech provided detailed transaction data for all costs charged to NSF awards during our
audit period. We obtained data directly from NSF which was collected by directly accessing NSF’s
various data systems. To select transactions for further review, we designed and performed automated
tests of Virginia Tech and NSF data to identify areas of risk and conducted detailed reviews of
transactions in those areas.

We assessed the reliability of the data provided by Virginia Tech by: (1) comparing costs charged to NSF
award accounts within Virginia Tech’s accounting records to reported net expenditures, as reflected in
Virginia Tech’s quarterly financial reports submitted to NSF for the corresponding periods; (2)
performing general ledger to sub-ledger reconciliations of accounting data; and (3) reviewing and testing
the parameters Virginia Tech used to extract transaction data from its accounting records and systems.

Based on our testing, we found Virginia Tech’s computer-processed data sufficiently reliable for the
purposes of this audit. We did not review or test whether the data contained in, or controls over, NSF’s
databases were accurate or reliable; however the independent auditors’ report on NSF’s financial
statements for fiscal years 2010 and 2011 found no reportable instances in which NSF’s financial
management systems did not substantially comply with applicable requirements.
                                                                                                        15
                                                                                         APPENDIX B
OBJECTIVES, SCOPE, AND METHODOLOGY

In assessing the allowability of costs reported to NSF by Virginia Tech, we also gained an understanding
of the internal controls structure applicable to the scope of this audit through interviews with Virginia
Tech staff, review of policies and procedures, and conducting walkthroughs as applicable and reviews.

We assessed Virginia Tech’s compliance with the University’s internal policies and procedures, as well as
the following:

       Government Auditing Standards (2011 version);
       Public Law 111-5, American Recovery and Reinvestment Act of 2009;
       Office of Management and Budget (OMB) Circular A-21, Cost Principles for Educational
        Institutions (2 C.F.R., Part 220);
       OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements with
        Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations (2 C.F.R., Part
        215);
       OMB Memorandum M-10-08, Updated Guidance on the American Recovery and Reinvestment
        Act – Data Quality, Non-Reporting Recipients, and Reporting of Job Estimates;
       NSF Proposal and Award Policies and Procedures Guide, Part II: Award and Administration
        Guide
       NSF Award Specific Terms and Conditions; and
       NSF Federal Demonstration Partnership Terms and Conditions.




                                                                                                      16
The remaining attachments contain non-public material and are not posted.
